APPENDIX 1

Case 1:02-cr-00065-LG Document 55 Filed 07/10/17 Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
SOUTHERN DIVISION
WILL ROBERTSON BROWN

PETITIONER

v.

CRIMINAL NO. 1:02-cr-65-WJG
CIVIL NO. 1:16-cv-223-LG

UNITED STATES OF AMERICA

RESPONDENT

ORDER DENYING MOTION MADE PURSUANT TO 28 U.S.C. § 2255
BEFORE THE COURT is the [50] Motion to Vacate, Set Aside, or Correct a
Federal Sentence Pursuant to 28 U.S.C. § 2255 filed by Defendant Will Robertson
Brown. Having reviewed the applicable law and the submissions of the parties, the
Court finds that Brown’s Motion should be denied because at least three of his
previous state court convictions qualify as violent felonies under the “elements
clause” of 18 U.S.C. § 924(e)(2)(B)(i).
BACKGROUND
Brown was convicted under 18 U.S.C. § 922(g) of being a felon in possession
of a firearm. This conviction resulted in an enhanced sentence under 18 U.S.C. §
924(e)(1), part of the Armed Career Criminal Act (ACCA), to 188 months and five
years supervised release. Specifically, § 924(e)(1) sets a mandatory 15 year (180
months) minimum sentence for a person who violates § 922(g) and has three
previous convictions for a violent felony. At the time of Brown’s sentence, a crime
could qualify as a violent felony under the “elements clause,” the “enumerated
crimes clause,” or the “residual clause” of § 924(e)(2)(B). Because the Court found

1

Case 1:02-cr-00065-LG Document 55 Filed 07/10/17 Page 2 of 7

that Brown had at least three previous convictions for a violent felony, Brown was
subject to the minimum sentence set out in § 924(e)(1).
In 2015, after Brown’s sentencing, the United States Supreme Court held
that the “residual clause” of § 924(e)(2)(B) violated the Constitution’s guarantee of
due process. Johnson v. United States, 135 S. Ct. 2551, 2563 (2015). Brown then
filed this Motion arguing that his previous Mississippi state court convictions
qualified as violent felonies only under the “residual clause” and should no longer
be considered violent felonies under 18 U.S.C. § 924(e)(2)(B). For the reasons
discussed below, Brown’s Motion is denied.
DISCUSSION
Section 2255 provides four grounds for relief: (1) “that the sentence was
imposed in violation of the Constitution or laws of the United States;” (2) “that the
court was without jurisdiction to impose such sentence;” (3) “that the sentence was
in excess of the maximum authorized by law;” and (4) that the sentence is otherwise
“subject to collateral attack.” 28 U.S.C. § 2225(a). Brown contends, based on the
Supreme Court’s Johnson (2015) ruling, that his prior state court convictions for
burglary and larceny, aggravated assault, and aggravated assault against a law
enforcement officer are not violent felonies under the ACCA, and thus that he is
entitled to a sentence correction. The Court discusses each conviction in turn below.
Aggravated Assault and Aggravated Assault Against a Law Enforcement
Officer
Courts employ a categorical approach when classifying a prior conviction for

2

Case 1:02-cr-00065-LG Document 55 Filed 07/10/17 Page 3 of 7

sentencing enhancement purposes. See Taylor v. United States, 495 U.S. 575, 602
(1990). Under this approach, “the analysis is grounded in the elements of the
statute of conviction rather than a defendant’s specific conduct.” United States v.
Rodriguez, 711 F.3d 541, 549 (5th Cir. 2013) (en banc). In Johnson v. United States,
559 U.S. 133 (2010), the United States Supreme Court clarified that in order for a
statute to qualify under the elements clause, the statute must have an element of
“physical force,” that is, “violent force” capable of causing physical pain or injury to
another person. Id. at 140.
If “a statute contains multiple, disjunctive subsections,” courts apply a
modified categorical approach. See United States v. Sanchez–Espinal, 762 F.3d 425,
429 (5th Cir. 2014). Under this approach, “courts may ‘look beyond the statute to
certain conclusive records made or used in adjudicating guilt in order to determine
which particular statutory alternative applies to the defendant’s conviction’” and
apply the categorical approach to that version of the crime. Id. (quoting United
States v. Bonilla–Mungia, 422 F.3d 316, 320 (5th Cir. 2005)). “[A court] may review
‘the statutory definition, charging document, written plea agreement, transcript of
plea colloquy, and any explicit factual finding by the trial judge to which the
defendant assented’” in order to determine under which subsection the defendant
was charged. See United States v. Elizondo–Hernandez, 755 F.3d 779, 781 (5th Cir.
2014) (quoting Shepard v. United States, 125 S. Ct. 1254 (2005)). A criminal statute
must be divisible—that is, the statute must “comprise[ ] multiple, alternative

3

Case 1:02-cr-00065-LG Document 55 Filed 07/10/17 Page 4 of 7

versions of the crime”—in order for the modified categorical approach to apply.
Descamps v. United States, 133 S. Ct. 2276, 2283–84 (2013).
The Mississippi aggravated assault statute under which Brown was
convicted states in pertinent part:
A person is guilty of aggravated assault if he:
(i) attempts to cause serious bodily injury to another, or causes such
injury purposely, knowingly or recklessly under circumstances
manifesting extreme indifference to the value of human life; or
(ii) attempts to cause or purposely or knowingly causes bodily injury to
another with a deadly weapon or other means likely to produce death
or serious bodily harm;...
Miss. Code § 97-3-7(2)(a).
This statute is divisible into two parts, (i) and (ii).1 See, e.g., Hollins v.
United States, No. 2:11-CR-143-MPM-JMV, 2016 WL 6769026, at *3 (N.D. Miss.
Nov. 15, 2016). According to Brown’s Presentence Investigation Report, court
documents show that Brown was convicted of “attempting to cause bodily injury to
[the victim] by shooting at her with a firearm.” (Presentence Investigation Report 9,
ECF No. 25). This language, as well as Brown’s own Motion, indicate that he was
convicted under part (ii). (See Mot. 12, ECF No. 50).
Brown argues that part (ii) of the statute does not meet the physical force
requirement because it could be satisfied by the defendant administering poison to
his victim, thus excluding the use of physical force as contemplated by Johnson

1

Part (iii) pertains to causing injury to a child exiting a school bus and is
clearly inapplicable here.
4

Case 1:02-cr-00065-LG Document 55 Filed 07/10/17 Page 5 of 7

(2010). To support this argument he cites United States v. Villegas-Hernandez, 468
F.3d 874 (5th Cir. 2006), which held that a Texas assault statute did not require the
use of physical force because the offense could be committed by the administration
of poison. However, the Fifth Circuit has more recently held that a court “need not
engage in speculation to identify such remote possibilities.” United States v.
Basulto-Reina, 421 F. App’x 349, 352 (5th Cir. 2011). In Basulto-Reina, the Court
found that because defendant cited no cases applying the statute at issue in the
absence of force, the defendant had not shown a “realistic probability” that the
statute could apply in such situations. Id. at 353. As a result, the Court ruled that
the statute involved the use of force. Id. Likewise, Brown has failed to cite any
Mississippi cases applying the aggravated assault statute in the absence of force.
Therefore, he has not shown a “realistic probability” that the statute could apply in
such situations. See, e.g., United States v. Ceron, 775 F.3d 222, 229 (5th Cir. 2014).
Additionally, Mississippi district courts have ruled that this statute requires as an
element the use of physical force. See, e.g., Beckworth v. United States, No.
4:12CR88, 2016 WL 4203510, at *4 (N.D. Miss. Aug. 9, 2016); Farmer v. United
States, No. 1:12CR166-MPM, 2016 WL 4204085, at *4 (N.D. Miss. Aug. 9, 2016).
Furthermore, neither the language of the Mississippi aggravated assault
statue nor the “elements clause” distinguishes between an attempt or completion of
the defendant’s intended action. The “elements clause” includes crimes that have
“as an element the use, attempted use, or threatened use of physical force against

5

Case 1:02-cr-00065-LG Document 55 Filed 07/10/17 Page 6 of 7

the person of another....” 18 U.S.C. § 924(e)(2)(B)(i) (emphasis added). Therefore,
even an attempted use of physical force, such as at issue here, qualifies as a crime
of violence.
Finally, the only difference between the aggravated assault statute and the
aggravated assault on a law enforcement officer statute, § 97-3-7(2)(b), is a higher
potential prison term. Therefore, aggravated assault on a law enforcement officer
also qualifies as a crime of violence under the ACCA.
Burglary and Larceny
Brown argues that his conviction for burglary and larceny is not a “violent
felony” despite the fact that burglary is an enumerated crime under the ACCA
because the Mississippi burglary statute is broader than the generic definition.
However, the Court need not address this argument because Brown already has
three qualifying convictions under the ACCA.
The ACCA states:
In the case of a person who violates section 922(g) of this title and has
three previous convictions by any court referred to in section 922(g)(1)
of this title for a violent felony or a serious drug offense, or both,
committed on occasions different from one another, such person shall
be fined under this title and imprisoned not less than fifteen years....
18 U.S.C.A. § 924(e)(1).
Brown’s prior convictions for aggravated assault and aggravated assault on a
law enforcement officer are violent felonies. In addition, Brown has a prior
conviction for arson, which the United States District Court for the Southern
District of Illinois has already recognized as a “violent felony” for purposes of the
6

Case 1:02-cr-00065-LG Document 55 Filed 07/10/17 Page 7 of 7

ACCA2, and which Brown has not challenged in his Motion. Thus, the Court need
not determine whether burglary and larceny also qualify as a violent felony because
Brown is subject to the § 924(e)(1) sentencing enhancement without such a
determination. See, e.g., United States v. White, Criminal Action No: 07-0011, 2016
WL 7097365, at *2 n.1 (E.D. La. Dec. 6, 2016) (ruling that the ACCA applied
regardless of whether the crime at issue was a violent felony because Petitioner
already had more than three convictions for violent felonies); see also United States
v. Joslin, 487 F. App’x 139, 142 (5th Cir. 2012).
IT IS THEREFORE ORDERED AND ADJUDGED that Petitioner
William Robertson Brown’s [50] Motion Under 28 U.S.C. § 2255 to Vacate, Set
Aside, or Correct Sentence is DENIED.
SO ORDERED AND ADJUDGED this the 10th day of July, 2017.

s/

Louis Guirola, Jr.

LOUIS GUIROLA, JR.
CHIEF U.S. DISTRICT JUDGE

2

Brown v. Walton, No. 14-cv-97-CJP, 2015 WL 1064417, at *3 (S.D. Ill. Mar.
9, 2015).
7

APPENDIX 2

Case: 17-60499

Document: 00515390412

Page: 1

Date Filed: 04/21/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________
No. 17-60499
Summary Calendar
_______________________

United States Court of Appeals
Fifth Circuit

FILED
April 21, 2020
Lyle W. Cayce
Clerk

D.C. Docket No. 1:16-CV-223
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
WILL ROBERTSON BROWN,
Defendant - Appellant
Appeal from the United States District Court
for the Southern District of Mississippi
Before CLEMENT, ELROD, and OLDHAM, Circuit Judges.

JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is
vacated, and the cause is remanded to the District Court for further
proceedings in accordance with the opinion of this Court.

APPENDIX 3

United States v. Brown, 802 Fed.Appx. 151 (2020)

802 Fed.Appx. 151 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 5th Cir. Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.
UNITED STATES of America, Plaintiff-Appellee
v.
Will Robertson BROWN, Defendant-Appellant
No.
17
60499
|
Summary Calendar
|
FILED April 21, 2020
Appeal from the United States District Court for the Southern
District of Mississippi, USDC No. 1:16-CV-223
Attorneys and Law Firms
Gaines H. Cleveland, Assistant U.S. Attorney, U.S. Attorney's
Office, Southern District of Mississippi, Gulfport, MS,
Gregory Layne Kennedy, Esq., Assistant U.S. Attorney,
Darren John LaMarca, Assistant U.S. Attorney, U.S.
Attorney's Office, Southern District of Mississippi, Jackson,
MS, for Plaintiff-Appellee
Michael L. Scott, Esq., Thomas Creagher Turner, Jr.,
Esq., Federal Public Defender's Office, Southern District of
Mississippi, Jackson, MS, for Defendant-Appellant
Before CLEMENT, ELROD, and OLDHAM, Circuit Judges.
Opinion
PER CURIAM: *
*

Pursuant to 5th Cir. R. 47.5, the court has
determined that this opinion should not be
published and is not precedent except under the
limited circumstances set forth in 5th Cir. R. 47.5.4.

Will Robertson Brown, former federal prisoner # 03641-043,
appeals the district *152 court’s denial and dismissal of his
tentatively-authorized successive 28 U.S.C. § 2255 motion
challenging his conviction of and sentence for being a felon
in possession of a firearm. See

18 U.S.C. §§ 922(g)(1),

924(e). The district court sentenced Brown in 2004 to
188 months in prison and five years of supervised release.
Although he has been released from prison, this appeal is
not moot because Brown is currently serving his term of
supervised release. See

United States v. Lares-Meraz, 452

F.3d 352, 355 (5th Cir. 2006). In his successive
§ 2255
motion, Brown argued that four of six prior convictions no
longer qualify as violent felonies under

§ 924(e)(2)(B)

after
Johnson v. United States, ––– U.S. ––––, 135 S. Ct.
2551, 192 L.Ed.2d 569 (2015). Brown contends that without
those violent felony convictions, he was not subject to the
enhanced penalties under the Armed Career Criminal Act
(ACCA).
Because Brown based his successive
§ 2255 motion on a
new rule of constitutional law made retroactive to cases on
collateral review by the Supreme Court in Johnson, Brown
had to show in the district court that his claim “relie[d] on”
that rule.
United States v. Wiese, 896 F.3d 720, 723 (5th
Cir. 2018), cert. denied, ––– U.S. ––––, 139 S. Ct. 1328, 203
L.Ed.2d 574 (2019). Specifically, Brown had to show that the
sentencing court “more likely than not” relied on the residual
clause at sentencing to categorize a prior conviction as a
violent felony. United States v. Clay, 921 F.3d 550, 558-59
(5th Cir. 2019), as revised (Apr. 25, 2019), cert. denied,
––– U.S. ––––, 140 S. Ct. 866, 205 L.Ed.2d 506 (2020).
Reviewing de novo, see
Wiese, 896 F.3d at 723 & n.3, we
conclude that Brown failed to make the required showing. See
Clay, 921 F.3d at 558-59. The district court therefore did
not have jurisdiction to reach the merits, and our jurisdiction
likewise does not extend to the merits. See
at 723-24.

Wiese, 896 F.3d

When the district court sentenced Brown in 2004, the ACCA
provided enhanced penalties for a felon in possession of a
firearm who had at least three prior convictions for violent
felonies or serious drug offenses.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

§ 924(e)(1) (2004). At

1

United States v. Brown, 802 Fed.Appx. 151 (2020)

that time and until
Johnson, the ACCA defined a violent
felony as a crime punishable by more than one year in
prison that (1) “has as an element the use, attempted use,
or threatened use of physical force against” another (the
elements or force clause), (2) is the enumerated offense of
burglary, arson, or extortion, or involves the use of explosives
(the enumerated offenses clause), or (3) “otherwise involves
conduct that presents a serious potential risk of physical injury
to another” (the residual clause).
(2017); see

§ 924(e)(2)(B) (2004) &

United States v. Taylor, 873 F.3d 476, 477 n.1

(5th Cir. 2017). In

Johnson, the Court held that the residual

clause is unconstitutionally vague.

135 S. Ct. at 2557.

At the time of his sentencing, Brown had a 1992 Mississippi
conviction for aggravated assault and two 1993 Mississippi
convictions for aggravated assault of a law enforcement
officer. See

MISS. CODE § 97-3-7(2) (West 1991);

MISS. CODE § 97-3-7(2) (West 1992); see also
McNeill v. United States, 563 U.S. 816, 821, 131 S.Ct.
2218, 180 L.Ed.2d 35 (2011). Aggravated assault of a law
enforcement officer was defined by the same conduct as
aggravated assault generally except the offense had to be
perpetrated against a law enforcement officer, and it carried a
heavier penalty.

MISS. CODE § 97-3-7(2) (West 1992).

*153 In 2004, aggravated assault was not an enumerated
offense and did not involve the use of explosives under
§
924(e)(2)(B)(ii) (2004). Although the inclusion of reckless
conduct in subsection (a) of the Mississippi statute likely
did not involve the use of force at the time of Brown’s
sentencing, see
United States v. Vargas-Duran, 356 F.3d
598, 605 (5th Cir. 2004), Brown concedes, and the record
supports, that his prior convictions arose under subsection
(b) of the divisible state statute which requires intentional
conduct. See

MISS. CODE § 97-3-7(2)(b) (West 1991);

End of Document

MISS. CODE § 97-3-7(2)(b) (West 1992). Subsection
(b) criminalized an “attempt[ ] to cause or purposely or
knowingly caus[ing] bodily injury to another with a deadly
weapon or other means likely to produce death or serious
bodily harm.”

MISS. CODE § 97-3-7(2)(b) (West 1991);

MISS. CODE § 97-3-7(2)(b) (West 1992). Based on
the record and the legal precedent at the time of Brown’s
sentencing, see
Wiese, 896 F.3d at 724-25, Brown fails
to show that it is more likely than not that the district court
relied on the residual clause, rather than the force clause,
to determine that his prior convictions qualified as violent
felonies under
§ 924(e)(2). See
United States v.
Calderon-Pena, 339 F.3d 320, 329-30 (5th Cir. 2003), reh’g
en banc granted, opinion vacated, 362 F.3d 293 (5th Cir.
2004), on reh’g en banc,
overruled by

383 F.3d 254 (5th Cir. 2004),

United States v. Reyes-Contreras, 910 F.3d

169, 181-82 (5th Cir. 2018) (en banc);

United States v.

Shelton, 325 F.3d 553, 557-59 (5th Cir. 2003);
United
States v. Martinez, 962 F.2d 1161, 1168-69 & n.14 (5th Cir.
1992).
Because Brown failed to show that the district court more
likely than not relied on the residual clause in concluding
that he had three prior violent felony convictions under
§ 924(e),

Johnson is not a jurisdictional predicate for

Brown’s
§ 2255 motion. See
Clay, 921 F.3d at 558-59.
Therefore, the district court did not have jurisdiction to reach
the merits of Brown’s § 2255 motion. See id.; Wiese,
896 F.3d at 724-26. Consequently, we VACATE the district
court’s judgment and DISMISS Brown’s
for lack of jurisdiction.

§ 2255 motion

All Citations
802 Fed.Appx. 151 (Mem)
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

